v;

USCA11 Case: 20-11177

Date Filed: 03/25/2021

A

Page: 1 of 9

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11177
Non-Argument Calendar

D.C. Docket No. 5:15-cv-00375-TJC-PRL
SAMUEL ROY ABRAM,
Plaintiff-Appellant,
versus
DAVID LEU,
Captain of Security,
A. CLUNTZ,
SIS Agent,
K. BARKER,
SIS Lieutenant,
Defendants-Appellees.

Appeal from the United States District Court
for the Middle District of Florida
(March 25, 2021)
Before ROSENBAUM, NEWSOM, and ANDERSON, Circuit Judges.
PER CURIAM:

a

USCA11 Case: 20-11177

Date Filed: 03/25/2021

Page: 2 of 9

Samuel Abram, proceeding pro se, appeals the dismissal without prejudice of
his action pursuant to Bivens v. Six Unknown Named Agents of Federal Bureau of
Narcotics, 403 U.S. 388 (1971), relating to the alleged confiscation of certified mail
and other materials from him in October 2013 and his subsequent transfer, for failure
to exhaust available administrative remedies. He argues that he was not required to
exhaust the Federal Bureau of Prisons’ (“BOP”) administrative remedies because
they were unavailable since prison officials refused to provide him with the forms
necessary to initiate the grievance process.
I.
We review a district court’s interpretation and application of the Prison
Litigation Reform Act’s (“PLRA”) exhaustion requirement de novo. Johnson v.
Meadows, 418 F.3d 1152, 1155 (11th Cir. 2005). Additionally, we review a district
court’s factual findings for clear error. Whatley v. Smith, 802 F.3d 1205, 1209 (11th
Cir. 2015). We may affirm on any ground supported by the record.

Big Top

Koolers, Inc. v. Circus-Man Snacks, Inc., 528 F.3d 839, 844 (11th Cir. 2008).
The PLRA requires prisoners who wish to challenge some aspect of prison
life to exhaust all available administrative remedies before resorting to the courts.
Porter v. Nussle, 534 U.S. 516, 532 (2002); see 42 U.S.C. § 1997e(a); Alexander v.
Hawk, 159 F.3d 1321, 1324-25 (11th Cir. 1998) (holding that the PLRA’s
exhaustion requirement applies to federal prisoners bringing Bivens actions).
2

USCA11 Case: 20-11177

Date Filed: 03/25/2021

Page: 3 of 9

Exhaustion is mandatory under the PLRA, and unexhausted claims cannot be
brought in court. Jones v. Bock, 549 U.S. 199, 211 (2007). The failure to exhaust
administrative remedies requires that the action be dismissed. Chandler v. Crosby,
379 F.3d 1278, 1286 (11th Cir. 2005).
To satisfy the exhaustion requirement, a prisoner must complete the
administrative process in accordance with the applicable grievance procedures set
by the prison. Jones, 549 U.S. at 218; Johnson, 418 F.3d at 1156. In other words,
“[t]he PLRA requires ‘proper exhaustion’ that complies with the ‘critical procedural
rules’ governing the grievance process.” Dimanche v. Brown, 783 F.3d 1204, 1210
(11th Cir. 2015). Procedurally defective grievances or appeals are not adequate to
exhaust. Woodford v. Ago. 548 U.S. 81, 93-95 (2006). As a result, an untimely
j

grievance that is rejected as such by prison officials does not satisfy the PLRA’s
exhaustion requirement. Johnson, 418 F.3d at 1156-59.
Although proper exhaustion is generally required, a remedy must be
“available” before a prisoner is required to exhaust it. Turner v. Burnside, 541 F.3d
u

CM

1077, 1082, 1084 (11th Cir. 2008). An administrative remedy may be unavailable
when prison officials interfere with a prisoner’s pursuit of relief. Ross v. Blake, 136
S. Ct. 1850, 1860 (2016).
Defendants in this Circuit may raise lack of exhaustion in a motion to dismiss.
Whatley, 802 F.3d at 1209. Deciding a motion to dismiss for failure to exhaust
3

USCA11 Case: 20-11177

Date Filed: 03/25/2021

Page: 4 of 9

administrative remedies is a two-step inquiry. Id. (citing Turner, 541 F.3d at 108182). District courts first should compare the factual allegations in the motion to
dismiss and those in the prisoner’s response and, where there is a conflict, accept the
prisoner’s view of the facts as true. Id. “The court should dismiss if the facts as
stated by the prisoner show a failure to exhaust.” Id. Second, if dismissal is not
warranted at the first stage, the court should make specific findings to resolve
disputes of fact, “and should dismiss if, based on those findings, defendants have
shown a failure to exhaust.” Id.
II.
In this case, the defendants filed a motion to dismiss the complaint for lack of
exhaustion. They asserted that, as a federal prisoner, Abram was subject to the
BOP’s administrative-remedy program, codified at 28 C.F.R. §§ 542.10, et seq.,
under which a prisoner is required to (1) submit an institutional-level request, usually
through both an “informal resolution” request (typically using form BP-8) and a
formal request (form BP-9), within 20 days following the incident; (2) appeal to the
Regional Director (form BP-10); and (3) appeal to the General Counsel (form BP11). See 28 C.F.R. §§ 542.13-542.15.
The defendants submitted evidence showing that on February 10, 2014,
Abram first filed a grievance (number 767898-F1) relating to the basis for his Bivens
claim, that this grievance was denied for being untimely and for improperly raising
4

USCA11 Case: 20-11177

Date Filed: 03/25/2021

Page: 5 of 9

more than one issue, and that Abram failed to appeal the denial of this request to the
regional or central-office level. Further, according to the defendants, Abram filed
another grievance (number 771756-R1) on March 17, 2014, but it was rejected as
improperly filed at the regional level rather than the institutional level, and Abram
failed to reinitiate the grievance at the institutional level.
Abram responded that the administrative-grievance procedure was not
available to him because prison officials refused to provide him with the forms (BP8 and BP-9) necessary to initiate the grievance process. He claimed that, after he
was transferred to the Special Housing Unit (“SHU”) following the confiscation of
his materials on October 28, 2013, the(unit)or case manager never visited him, so he
could not request the forms required to timely initiate the grievance process. In
addition, he submitted an affidavit from another prisoner who stated that, while
housed in the SHU, he witnessed Abram requesting BP-8 and BP-9 forms “to no
avail.” It appears that Abram obtained the required(for)n by February 10, 2014,
when he initiated the grievance process.
Applying the two-step process for resolving exhaustion issues, see Whatley,
802 F.3d at 1209, the district court first found that dismissal of Abram’s claims for
lack of exhaustion was not warranted, accepting his view of the facts as true.
Turning to the second step of the analysis, the court concluded that, even assuming
prison officials refused to timely provide Abram with the required forms, Abram
5

y

USCA11 Case: 20-11177

Date Filed: 03/25/2021

Page: 6 of 9

ft.

was still required to comply with the grievance procedure by either resubmitting the

<2

grievance/6r appealing its denial. The court reasoned that to “properly exhaust his
administrative remedies,” Abram had “to appeal the Warden’s unsatisfactory
response that his institutional-level grievance was untimely.” Finally, the court
found that the evidence refuted any claim that Abram did not have access to the
forms for appealing the denial of his February 10, 2014, grievance. The court then
denied Abram’s motion for reconsideration.
III.
BOP regulations require prisoners to initiate the administrative-grievance
procedure using the “appropriate form,” which must be obtained from prison staff.
28 C.F.R. § 542.14(a). So if prison staff refuses to provide the form necessary to
initiate the grievance procedure, as Abram alleges occurred here, it is difficult to say
that the procedure is “available” to the prisoner. Other circuits agree. See Hill v.
Snyder, 817 F.3d 1037,1041 (7th Cir. 2016) (“[E]xhaustion is not required when the
prison officials responsible for providing grievance forms refuse to give a prisoner
the forms necessary to file an administrative grievance.”); Dale v. Lappin, 376 F.3d
652, 656 (7th Cir. 2004) (“If prison employees refuse to provide inmates with those
forms when requested, it is difficult to understand how the inmate has any available
remedies.”); Mitchell v. Horn, 318 F.3d 523, 529 (3d Cir. 2003) (suggesting that
remedies were not available where “prison officials denied [the prisoner] the
6

$

USCA11 Case: 20-11177

Date Filed: 03/25/2021

Page: 7 of 9

necessary grievance forms”); Miller v. Norris, 247 F.3d 736, 738-40 (8th Cir. 2001)
(holding that allegations of prison officials’ failure “to respond to the requests for
grievance forms” were sufficient to raise a genuine issue of fact as to the availability
of administrative remedies).
In Bryant v. Rich, however, we indicated that temporary obstacles that prevent
the submission of a timely grievance—such as a lockdown, a transfer, or a refusal
by prison officials to provide the necessary forms—do not make administrative
remedies unavailable where prisoners may “request consideration of untimely
grievances for good cause.” 530 F.3d 1368, 1373 (11th Cir. 2008). One of the
plaintiffs in Bryant, a Georgia state prisoner, alleged that the prison’s grievance
procedure was unavailable to him because prison officials denied him the necessary
forms and then transferred him to another institution. Id. Although we recognized
that a grievance filed after the prisoner’s transfer “would have been untimely,” we
noted that “the relevant grievance procedures provide inmates with the opportunity
to request consideration of untimely grievances for good cause.” Id.
Given that opportunity, we concluded that the prisoner “could have exhausted
his administrative remedies by filing a grievance at [the new institution] and then by
showing good cause for its tardiness.” Id. And while there was some evidence that
the prisoner had been denied the required forms at the new institution, which
presented a genuine issue of fact as to the availability of the remedies, we found that
7

f.

USCA11 Case: 20-11177

Date Filed: 03/25/2021

Page: 8 of 9

the district court’s contrary finding was adequately supported by the record. Id. at
1373, 1377-78. We therefore affirmed the dismissal of the prisoner’s complaint for
lack of exhaustion. Id. at 1378.
Bryant controls our resolution of this case. While Abram’s case concerns the
BOP’s administrative remedies, not the Georgia administrative remedies at issue in
Bryant, the BOP regulations similarly give prisoners the opportunity to request
consideration of an untimely grievance for a “valid reason” (instead of “good
cause”). See id. at 1373. Specifically, 28 C.F.R. § 542.14(b), titled “Extension,”
states that “[w]here the inmate demonstrates a valid reason for delay, an extension
in filing time may be allowed. In general, valid reason for delay means a situation
which prevented the inmate from submitting the request within the established time
frame.” A refusal to provide the forms necessary to initiate the grievance process
appears to qualify as such “a situation which prevented the inmate from submitting
the request within the established time frame.”
So, although Abram, like the prisoner in Bryant, may have been prevented
from filing a timely grievance due to prison officials’ refusal to provide him the
necessary forms, the record reflects that he “could have exhausted his administrative
remedies by filing a grievance ... and then by showing good cause for its tardiness.”
Bryant, 530 F.3d at 1373. We know this because Abram filed an untimely grievance
related to the grounds for his Bivens claim, stemming from events in October 2013,
8

*«
. *•
•

■

USCA11 Case: 20-11177

Date Filed: 03/25/2021

Page: 9 of 9

on February 10, 2014. But there is no indication that he presented a “valid reason”
for its tardiness or otherwise sought an extension of time as permitted under the
grievance procedure.1

See id.

Thus, Abram failed to exhaust his available

administrative remedies and dismissal was proper.2
IV.
For these reasons, we affirm the dismissal of Abram’s complaint for failure
to exhaust administrative remedies as required by the PLRA.
AFFIRMED.

i

In addition, throughout the proceedings in this case, Abram has given no indication that
he was unaware of or misinformed about the BOP’s prison-grievance procedure.
2 The record reflects that in 2015 Abram filed other grievances related to the ground for his
current Bivens claim, but the district court correctly concluded that these grievances were not
timely or otherwise adequate to exhaust his administrative remedies. See Dimanche, 783 F.3d at
1210; Johnson, 418 F.3d at 1156-59.
9

1

i,

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 1 of 16 PagelD 481

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION
SAMUEL ROY ABRAM,
Plaintiff,
Case No: 5:15-cv-375-Oc-32PRL

v.

DAVID LEU, A. CLONTZ,
and K. BARKER,
Defendants.

ORDER OF DISMISSAL
I.

Status
Plaintiff, a federal inmate proceeding pro se, initiated this action by filing

a civil rights Complaint, which the Court construes as being filed pursuant to
Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics. 403 U.S.
388 (1971).1 See Doc. 1 (Complaint). He alleges that several Bureau of Prisons
employees at FCC Coleman tampered with his mail and confiscated paperwork
in violation of his First, Fifth, and Eighth Amendment rights. See generally id.
Plaintiff names three Defendants: David Leu, A. Clontz, and K. Barker. IcL at
2.

1 Plaintiff cites 42 U.S.C. § 1983 as a means of bringing this action. See
Doc. 1 at 10. However, to the extent he sues federal employees in their
individual capacities, the Court construes such claims as being brought
pursuant to Bivens, the federal analog to § 1983.

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 2 of 16 PagelD482

This case is on remand from the Eleventh Circuit Court of Appeals after
it vacated this Court’s September 6, 2016, Order granting Defendants’ previous
motion to dismiss for failure to exhaust. See Doc. 52; see also Doc. 28. On May
10, 2019, the Court directed Defendants to file a second motion to dismiss
raising all arguments for dismissal that they wish to raise or otherwise respond
to the Complaint. See Doc. 55. Plaintiff filed an Objection arguing that any new
motion to dismiss must be limited to the exhaustion issue for which the
Eleventh Circuit remanded. See Doc. 56. The Court overrules Plaintiffs
Objection and finds that allowing Defendants to raise new arguments on
remand is not inconsistent with the Eleventh Circuit’s decision. See generally
Doc. 52.
Before the Court is Defendants’ Motion to Dismiss or, Alternatively, for
Summary Judgment. See Doc. 57 (Motion). Defendants seek dismissal or
summary judgment, because: (a) Plaintiff failed to exhaust his administrative
remedies; (b) Plaintiff fails to allege a physical injury; (c) Bivens has not been
extended to provide a right of action for Plaintiffs claims; (d) Defendants are
entitled to qualified immunity; and (e) Plaintiff lacks standing. See generally
id. In support of their Motion, Defendants rely on exhibits filed with their prior
motion to dismiss. See Docs. 20-1 through 20-4; Doc. 27-1. The Court previously
advised Plaintiff that the granting of a motion to dismiss may represent an
2

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 3 of 16 PagelD483

adjudication of this case which may foreclose subsequent litigation on the
matter. Doc. 55. Plaintiff filed a Response (Doc. 62; Response) and a
Supplemental Response (Doc. 63; Supp. Response) to Defendants’ Motion.
Defendants’ Motion is ripe for review.
II.

Plaintiffs Complaint
While not a picture of clarity, Plaintiff asserts that on October 28, 2013,

while housed at FCC Coleman, Defendant Clontz intercepted some of Plaintiffs
certified mail. Doc. 1 at 8. Plaintiff alleges that when Defendant Clontz
attempted to question Plaintiff about the mail, Plaintiff invoked his Fifth
Amendment right and refused to answer Defendant Clontz’s questions. Id.
According to Plaintiff, in response to Plaintiffs silence, Defendant Clontz
“became enraged at [Plaintiffs] lack of cooperation” and retaliated against
Plaintiff by placing him in the Special Housing Unit. Id. at 8.
According to Plaintiff, in the days following his move to the SHU,
Defendant Clontz continued to withhold from Plaintiff more incoming certified
mail. Id. Plaintiff alleges that Defendant Barker also confiscated “14 inches of
sovereign paperwork” from Plaintiffs housing quarters. Id. at 9. He avers that
this confiscation of documents occurred without due process as Defendant
Barker failed to allow Plaintiff an opportunity to inventory the confiscated
materials. Ich He claims that eventually, Defendant Leu “informed [Plaintiff]
3

Case 5:15-CV-00375-TJ C-P R L Document 65 Filed 03/02/20 Page 4 of 16 PagelD 484

that they were conducting an investigation” and were either going to refer
Plaintiff to close management or place him back in the compound of FCC
Coleman. Id. at 8 However, according to Plaintiff, Defendant Leu instead
transferred Plaintiff to another prison. I(L He claims that the transfer was in
retaliation for how Plaintiff responded, or failed to respond, to Defendant
Clontz’s questions regarding Plaintiffs incoming mail. Doc. 62 at 18.
Plaintiff alleges that Defendants violated his First, Fifth, and Eighth
Amendment rights. Doc. 1 at 10. Plaintiff avers that the “‘extreme
circumstances’ concerning the retaliatory seizing and destruction of the
Plaintiffs legal work . . . constitutes an Eighth Amendment” violation. See Doc.
62 at 18. He also alleges that Defendants Barker and Clontz “conspired together
to deny [ ] Plaintiff access to the Court by confiscating Plaintiffs legal work and
destroying two pieces of certified mail.” Id. at 19. Additionally, he appears to
claim that the retaliatory transfer of Plaintiff “to a more dangerous prison . . .
constitutes cruel and unusual punishment.” Id. at 14. As relief, Plaintiff
requests, “return of [his] personal property which was and is still in custody at
Coleman USP-2,” and “the $700,000.00 [Plaintiff] was asking for in Tort Claim
TRT-SER-2014-06457.” Id. at 10

4

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 5 of 16 PagelD 485

III.

Standard of Review
“To survive a motion to dismiss, a complaint must contain sufficient

factual matter, accepted as true, to ‘state a claim to relief that is plausible on
its face.’” Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009) (citing Bell Atl. Corn, v.
Twomblv. 550 U.S. 544, 570 (2007)). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” IcL (citing
Twomblv. 550 U.S. at 556). “Labels and conclusions” or “a formulaic recitation
of the elements of a cause of action” that amount to “naked assertions” will not
do. hL (quotations, alteration, and citation omitted). Moreover, a complaint
must “contain either direct or inferential allegations respecting all the material
elements necessary to sustain a recovery under some viable legal theory.” Roe
v. Aware Woman Ctr. for Choice. Inc.. 253 F.3d 678, 683 (11th Cir. 2001)
(quotations and citations omitted). The Court liberally construes the pro se
Plaintiffs allegations. See Haines v. Kerner. 404 U.S. 519, 520-21 (1972);
Bingham v. Thomas. 654 F.3d 1171,1175 (11th Cir. 2011).
III.

Analysis
a. Exhaustion
In examining the issue of exhaustion, courts employ a two-step

process.
5

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 8 of 16 PagelD 488

If the inmate is not satisfied with the Warden’s response at the
institutional level, he may next submit a Regional Administrative Remedy
Appeal (form BP-10) to the appropriate regional director within 20 calendar
days of the date the Warden signed the response — hereinafter referred as the
regional level of the grievance procedure. See id. § 542.15(a). If the inmate is
dissatisfied with the Regional Director’s response to his appeal, he may submit
a Central Office Administrative Remedy Appeal to the General Counsel within
30 calendar days of the date the Regional Director signed the response —
hereinafter referred to as the central office level of the grievance procedure. Id.
The appeal to the General Counsel (central office level) is the final step of the
administrative process. See id. Each of these steps is generally required to
satisfy the exhaustion requirement.
At any level, the coordinator may reject and return a grievance that does
not meet any of the procedural requirements. 28 C.F.R. § 542.17. The inmate
must be provided with written notice of the reason for rejection. If the defect is
correctable, the inmate must be given a reasonable extension of time to correct
the deficiency. IcL “When a Request or Appeal is rejected and the inmate is not
given an opportunity to correct the defect and resubmit, the inmate may appeal
the rejection ... to the next appeal level.” IcL

8

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 9 of 16 PagelD489

Defendants argue that Plaintiff failed to exhaust his administrative
remedies, because his intuitional-level remedy requests were returned without
action for failure to comply with procedural rules and he failed to appeal to the
regional level or central office level thereafter. Doc. 57 at 10. In support of their
argument, Defendants provided printouts of the BOP’s computerized
administrative

remedy

records : listing

all

administrative

requests

(institutional, regional, and central office) that Plaintiff filed between August
2008 and July 2016. See id. at 7-13 (SENTRY Printout, Administrative Remedy
Generalized Retrieval). They also provide the Declaration of Caixa Santos, a
Paralegal Specialist at FCC Coleman. See Doc. 27-1 at 2-4.
In his Response, Plaintiff argues that he was not obligated to exhaust his
administrative remedies because they were unavailable. Doc. 62 at 5-9. Plaintiff
alleges that the process was unavailable because prison officials prevented him
from timely filing his institutional-level requests; thus, he could not initiate the
first step of the grievance procedure. Id. He claims that once he was moved to
the SHU, the unit or case manager never visited him, so he could not request a
BP-8 form (request for informal resolution) or a BP-9 form (request for the
Warden). Id. As such, he argues that he was unable to timely complete the
institutional level of the exhaustion process, and prison officials thwarted his
ability to complete the first step because “it was the responsibility of the unit

9

■

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 10 of 16 Page ID 490

counselor” to provide Plaintiff with those forms. Id. at 7. In support of his
unavailability argument, Plaintiff provides an “Affidavit of Truth” from inmate
Charlie Buddha Bells who was housed in the SHU with Plaintiff.2 Doc. 63 at
23. According to Bells, he witnessed Plaintiff “requesting BP-8s and BP-9s to no
avail from his unit manager Panero and other staff members.” Id.
Accepting Plaintiffs view of the facts as true, the Court finds that
dismissal of these claims for lack of exhaustion is not warranted at the first step
of Turner. See Jackson v. Griffin. 762 F. App’x 744, 746 (11th Cir. 2019) (holding
disputes about availability of administrative remedies are question of fact that
can bar dismissal at Turner’s first step). Thus, the Court proceeds to the second
step of the two-part process where the Court considers Defendants’ arguments
regarding exhaustion and makes findings of fact.
Plaintiff was sent to the SHU on October 28, 2013. See Doc. 62 at 6. As
such, Plaintiffs deadline to submit an institutional-level grievance to the
Warden regarding his claims was November 17, 2013. However, the evidentiary
materials demonstrate that the first institutional-level grievance Plaintiff
2 Plaintiff also directs the Court to review an affidavit that Plaintiff filed
in case no. 5:14-cv-142 from fellow inmate Steven Donovan Dixon. See Doc. 62
at 6. That affidavit is not a part of this record. However, the Court did review
the document and notes that the contents of Dixon’s affidavit are that he
witnessed Plaintiff request BP-8 and BP-9 forms, but prison officials never
provided Plaintiff with the forms. Abram v. Leu, et al.. No. 5:14-cv-142-Oc36PRL (Doc. 16). As such, according to Dixon, he gave Plaintiff one BP-8 form
and multiple BP-9 forms---------- -------------------------- -------------------- ---------------10

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 11 of 16 PagelD 491

submitted to the Warden once he was moved to the SHU was in February 2014.
See Doc. 27-1 at 8. Notably, BOP documents indicate that on February 10, 2014,
the Warden received Plaintiffs institutional-level request no. 767898-F1
regarding “confiscated sover. pwk & missing certified mail.” Id. According to
Santo’s Declaration, institutional-level request no. 767898-F1 “was rejected on
February 12, 2014, for raising more than one issue/related issue or appeal and
[Plaintiff] was advised that he must file a separate request/appeal for each
unrelated issue or incident report he wants to address (MLT).” Doc. 27-1 at 3.
Santo further explains institutional-level request no. ■ 767898-F1 “was also
rejected for being untimely, as the request must be received within 20 days of
the date of the event complained about (UTF).” IdL at 3. Santos asserts that
Plaintiff failed to appeal the return of the institutional-level request no. 767898F1 to the Regional Director or Central Office thereafter. Id.
Plaintiff argues that prison officials’ refusal to timely provide him with
the institutional-level forms (i.e., BP-8 and BP-9) rendered his institutionallevel remedy unavailable. Nevertheless, even accepting that statement as true,
the record demonstrates that Plaintiff finally obtained access to institutionallevel request forms by February 10, 2014, when the Warden received
institutional-level request no. 767898-F1. Although the Warden rejected
request no. 767898-F1 as improperly filed and untimely, Plaintiff was still
11

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 12 of 16 Page ID 492

required to “properly take each step within the administrative process.” Bryant
v. Rich. 530 F.3d 1368, 1378 (11th Cir. 2008) (citations omitted). Indeed, the
Warden instructed Plaintiff to refile his claims by “filing a separate
request/appeal for each unrelated issue or incident report he want[ed] to
address.” However, Plaintiff did not attempt to properly refile his claims at the
institutional level, and he does not assert that he was prevented from
resubmitting his claims to the Warden once he received the Warden’s rejection
of grievance no. 767898-F1.
Further, and likely of more import, Plaintiff does not explain how the
rejection or untimely nature of his institutional-level grievance no. 767898-F1
hindered Plaintiffs ability to appeal the Warden’s rejection and complete the
grievance process. Instead, he essentially argues that the Warden’s finding that
his institutional-level grievance was untimely relieved him of his requirement
to appeal to the Regional Director and then the Central Office thereafter.
Plaintiff is mistaken. Section 542.15(a) provides that [a]n inmate who is not
satisfied with the Warden’s response may submit an Appeal ... to the
appropriate Regional Director . . . .” 28 C.F.R. § 542.15(a). This provision
allowed Plaintiff to appeal the Warden’s unsatisfactory response that his
institutional-level grievance was untimely, and he was required to do so to
properly exhaust his administrative remedies. See Harner v. Jenkin. 179 F.3d
12

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 13 of 16 PagelD 493

1311, 1312 (11th Cir. 1999) (holding that a prisoner who declined to appeal an
untimely grievance failed to exhaust his administrative remedies); see e.g..
Tucker v. Jones. No. 2:17-cv-133, 2018 WL 3557462, *6 (S.D. Ga. July 24, 2018)
(finding that the Regional Director’s finding that the plaintiffs BP-10 filing was
untimely did not relieve the plaintiff of his requirement to file an appeal to the
Central Office), report and recommendation adopted. No. 2:17-cv-133, 2018 WL
4688721, at *1 (S.D. Ga. Sept. 28, 2018).
The record also refutes any allegation that Plaintiff did not have access
to the appropriate forms for appealing to the regional level after the Warden
rejected institutional-level grievance no. 767898-F1. Indeed, the record
demonstrates that the Regional Office received grievance no. 771756-R1 from
Plaintiff on March 17, 2014. Doc. 27-1 at 8. While it appears that regional-level
grievance no. 771756-R1 involved a “mail complaint,” it was not an appeal of
the Warden’s rejection of the operative institutional-level grievance no. 767898Fl. Notably, according to Santos, regional-level request no. 771756-R1 “was
rejected on March 18* 2014, for failure to file a request at the institutional level
for the Warden’s review and response before filing at the regional level (INS).”
Id. at 3. In other words, instead of proceeding with the appeal of the Warden’s
rejection of no. 767898-F1, Plaintiff submitted a new, distinct grievance to the
Regional Director. Nevertheless, even assuming the March 17, 2014, grievance
13

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 13 of 16 PagelD 493

1311, 1312 (11th Cir. 1999) (holding that a prisoner who declined to appeal an
untimely grievance failed to exhaust his administrative remedies); see e.g.
Tucker v. Jones. No. 2:17-cv-133, 2018 WL 3557462, *6 (S.D. Ga. July 24, 2018)
(finding that the Regional Director’s finding that the plaintiffs BP-10 filing was
untimely did not relieve the plaintiff of his requirement to file an appeal to the
Central Office), report and recommendation adopted. No. 2:17-cv-133, 2018 WL
4688721, at *1 (S.D. Ga. Sept. 28, 2018).
The record also refutes any allegation that Plaintiff did not have access
to the appropriate forms for appealing to the regional level after the Warden
rejected institutional-level grievance no. 767898-F1. Indeed, the record
demonstrates that the Regional Office received grievance no. 771756-R1 from
Plaintiff on March 17, 2014. Doc. 27-1 at 8. While it appears that regional-level
grievance no. 771756-R1 involved a “mail complaint,” it was not an appeal of
the Warden’s rejection of the operative institutional-level grievance no. 767898Fl. Notably, according to Santos, regional-level request no. 771756-R1 “was
rejected on March 18, 2014, for failure to file a request at the institutional level
for the Warden’s review and response before filing at the regional level (INS).”
Id. at 3. In other words, instead of proceeding with the appeal of the Warden’s
rejection of no. 767898-F1, Plaintiff submitted a new, distinct grievance to the
Regional Director. Nevertheless, even assuming the March 17, 2014, grievance
13

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 14 of 16 PagelD 494

no. 771756-R1 was intended to be an appeal of the Warden’s rejection of
grievance no. 767898-F1, it is undisputed that Plaintiff never filed an additional
appeal to the Central Office by April 17, 2014, within thirty days of when the
Regional Director rejected grievance no. 771756-R1.
Accordingly, the Court finds that Plaintiff failed to exhaust his available
administrative remedies. Even assuming prison officials initially refused to
provide Plaintiff with the proper forms to initiate the institutional level of the
grievance process, Plaintiff was eventually able to file a grievance with the
Warden on February 10, 2014. Although that institutional-level grievance was
rejected as untimely, Plaintiff was still required to complete the grievance
process by submitting grievance appeals to the' jfefib'rMZ Director and then the
Central Office thereafter. He did not complete the process, and neither
Plaintiffs allegations nor the evidentiary materials in the record indicate that
those administrative remedies were unavailable so as to relieve Plaintiff of the
obligation to exhaust. As such, the Court concludes that Defendants’ Motion is

14

Case 5:15-cv-00375-TJC-PRL Document 65 Filed 03/02/20 Page 16 of 16 PagelD496

Jax-7
C:

Samuel Roy Abram, #11398-002
Counsel of Record

16

Case: 17-12319

Date Filed: 01/02/2019

Page: 1 of 10
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-12319
Non-Argument Calendar
D.C. Docket No. 5:15-cv-00375-WTH-PRL

SAMUEL ROY ABRAM,
Plaintiff-Appellant,
i.

versus
DAVID LEU,
Captain of Security,
A. CLUNTZ,
SIS Agent,
K. BARKER,
SIS Lieutenant,
Defendants-Appellees.

Appeal from the United States District Court
for the Middle District of Florida
(January 2, 2019)

L_ L

Case: 17-12319

Date Filed: 01/02/2019

Page: 2 of 10

Before MARCUS, ROSENBAUM, and BRANCH, Circuit Judges.
PER CURIAM:
Samuel Abram, a prisoner proceeding pro se, appeals the district court’s
dismissal of his federal civil-rights action for failure to exhaust available
administrative remedies as required by the Prison Litigation Reform Act (“PLRA”),
42 U.S.C. § 1997e(e). First, Abram argues that the district court improperly sua
sponte raised the affirmative defense of failure to exhaust. Second, he contends that
Federal Bureau of Prisons (“BOP”) staff interfered with his pursuit of administrative
remedies and made them unavailable. We disagree with his first argument, but we
do not reach the second one because we conclude that the district court did not afford
Abram a meaningful opportunity to address the issue of exhaustion and did not
analyze that issue under the correct legal standard. We therefore vacate and remand
for further proceedings.
I.
•' :In July 2015, Abram filed this civil-rights action, pursuant to Bivens v. Six
‘ Unknown Named Agents of the Federal Bureau of Narcotics, 403 U.S. 388 (1971),
against several BOP employees at United States Penitentiary, Coleman II
(“Coleman”). Abram alleged that BOP staff had tampered with his mail and
confiscated paperwork in violation of his rights under the First, Fifth, and Eighth
Amendments.
2

A

Case: 17-12319

Date Filed: 01/02/2019

Page: 3 of 10

The defendants filed a motion requesting either dismissal or summary
judgment. The defendants offered three specific grounds for dismissal or summary
judgment: (1) Abram failed to allege physical injury, as required by the PLRA; (2)
the defendants were entitled to qualified immunity from. Abram’s claims; and (3)
Abram lacked standing to pursue some of his claims. r .
In the course of making these arguments, the defendants explained that Abram
had sought administrative review of the confiscation of his property, but his
grievance was denied as untimely and as not filed in accordance with proper
procedures. In support of that statement, they .attached an-affidavit from Caixa
• Santos, a paralegal specialist at Coleman, who.,discussed Abram’s pursuit of
administrative remedies. Abram filed a response in opposition but did not directly
address the issue of exhaustion.

,•* r

In an order entered on August 15, 2016, a magistrate Judge reviewed the
defendants’ motion and Abram’s response and found that it was unclear whether the
defendants sought to dismiss the .complaint for failure to exhaust administrative
remedies or if they had waived the defense and for what reason. Noting that
exhaustion was mandatory under the PLRA, the magistrate judge was “uncertain”
based on the materials in the record whether Abram had exhausted his administrative
remedies. Faced with these ambiguities, the magistrate judge ordered the defendants

3

Case: 17-12319

Date Filed: 01/02/2019

Page: 4 of 10

to file within fourteen days a response clarifying their position on Abram’s
exhaustion of administrative remedies.
On August 29,2016, the defendants filed a response to the magistrate judge’s
order and specifically requested dismissal for lack of exhaustion. The defendants
asserted that Abram did not timely grieve the confiscation of his property within 20
days of the incident, as required by BOP procedures; that he did not properly appeal
the denial of that untimely grievance; and that his other, later attempts at exhaustion
were inadequate. The defendants relied on another affidavit from Santos and records
of Abram’s grievance history.
Just’ over a week later, on September 6, 2016, the district court dismissed
Abram’s complaint for failure to exhaust administrative remedies based on the
materials the defendants submitted. The court entered judgment two days later.
'

On September 21, 2016,-Abram moved for reconsideration of the dismissal.

.Abram did not dispute that the defendants’ evidence accurately reflected his
grievance history.

But he maintained that his attempt to timely exhaust his

administrative remedies had been frustrated by the defendants’ misconduct.
Specifically, Abram alleged that BOP staff had refused to provide him with the
forms necessary to exhaust his administrative remedies. Abram also submitted an
affidavit from another prisoner, who stated that he witnessed Abram requesting
grievance forms from BOP staff “to no avail.”
4

k.

Case: 17-12319

Date Filed: 01/02/2019

Page: 5 of 10

The district court denied Abram’s motion. The court stated that Abram’s
“attempt at exhaustion did not comply with the administrative procedures and was
deemed untimely,” and that he had not demonstrated that he was entitled to relief
from the exhaustion requirement or to reconsideration of the dismissal. The court
noted that another district court had rejected Abram’s, claim that he had been
prevented from starting the exhaustion process. Abram now.appeals.
II.
We review de novo a; district court’s interpretation and application of the
PLRA’s exhaustion requirement. Johnson v. Meadows, 418 F.3d 1152, 1155 (11th
Cir.-2005). We review the factual findings underlying an exhaustion determination
for clear error. Bryant v. Rich, 530 F.3d 1368, 1377 (11th Cir. 2008).
III.
The PLRA requires prisoners who wish to challenge some aspect of prison
life to exhaust all available administrative remedies before resorting to the courts.
Porter v. Nussle, 534 U.S. 516, 532 (2002); see 42 U.S.C. § 1997e(a). Exhaustion
is mandatory under the PLRA, and unexhausted claims cannot be brought in. court.
Jones v. Bock, 549 U.S. 199, 211 (2007). The failure to exhaust administrative
remedies requires that the action be dismissed. Chandlery. Crosby, 379 F.3d 1278,
1286 (11th Cir. 2005).

.5

/

r
Case: 17-12319

Date Filed: 01/02/2019

Page: 6 of 10

To satisfy the exhaustion requirement, a prisoner must complete the
administrative process in’accordance with the applicable grievance procedures set
by the prison. Jones, 549 U.S. at 218; Johnson, 418 F.3d at 1156. In other words,
“[t]He PLRA requires ‘proper exhaustion’ that complies with the ‘critical procedural
rules’ governing the grievance process.” Dimanche v. Brown, 783 F.3d 1204, 1210
(11th Cir. 2015). Procedurally defective grievances or appeals are not adequate to
exhaust. Woodford v. Ngo, 548 U.S. 81, 93-95 (2006). As a result, an untimely
grievance that is rejected as such by prison officials does not satjsfy the PLRA’s
exhaustion requirement. Johnson, 418 F.3d at 1156-59.
Although proper exhaustion is generally required, a remedy must be
“available” before a prisoner is required to exhaust it. Turner v. Burnside, 541 F.3d
1077, 1082, 1084 (11th Cir. 2008). An administrative remedy may be unavailable
when prison officials interfere with a prisoner’s pursuit of relief. Ross v. Blake, 136
^ /

S. Ct. 1850, 1860 (2016).

According to the Supreme Court, lack of exhaustion is an affirmative defense.
Jones, 549 U.S. at 216. In this Circuit, defendants may raise that defense in a motion
to dismiss. Whatley v! Warden, Ware State Prison, 802 F.3d 1205, 1209 (11th Cir.
2015). Deciding a motion to dismiss for failure to exhaust administrative remedies
is a two-step inquiry. Id. (citing Turner, 541 F.3d at 1081-82). District courts first
should compare the factual allegations in the motion to dismiss and those in the
6

A

Case: 17-12319

Date Filed: 01/02/2019

Page: 7 of 10

prisoner’s response and, where there is a conflict, accept the prisoner’s view of the
facts as true. “The court should dismiss if the facts as stated by the prisoner show a
failure,to exhaust.” Id. Second, if dismissal is not, warranted at the first stage,.the
court should make specific findings to resolve disputes of fact, “and should dismiss
if, based on those findings, defendants have shown a failure to exhaust.” Id.
We first consider Abram’s contention that the district court erred by ,sua
sponte raising the issue of exhaustion when the government did not initially move
to dismiss the complaint on that basis. The Supreme Court has explained that while
“exhaustion is mandatory under the PLRA,” failure to exhaust is an affirmative
defense. See Jones, 549 U.S. at 211-12. And we .have recognized that courts
'

•

1

. '

•

•‘Vv.' •

■

t

■

■

«,

•

.

generally lack the ability to raise affirmative defenses, sua sponte. Latimer v.
Roaring Toyz, Inc., 601 E.3d 1224, 1239—40 (11th Cir. 2010). “That’s becausethe
principle of party presentation is basic to our adversary system, and . the court’s
invocation of a party’s affirmative defense generally conflicts with that ideal.”
Burgess v. United States, 874 F.3d 1292, 1296 (11th Cir. 2017) (alteration-adopted)
(citation and internal quotation marks omitted).
At the same time, district courts are. not absolutely barred from making
“limited inquiry” into possible defenses. Id. at 1301. In particular, “[i]n an effort to
streamline the proceedings and manage their dockets, district courts may make
limited inquiry into litigants’ possible claims and defenses, without violating the
7

Case: 17-12319

Date Filed: 01/02/2019

Page: 8 of 10

party-presentation principle that animates our judicial system.” Id. So, while a court
may not invoke an affirmative.defense, it may ask whether the defendant intends to
rely on an available affirmative defense. See id.
Here, although the defendants did not clearly raise lack of exhaustion as a
defense in their initial response to'Abram’s complaint, the district court did not err
by seeking further clarification from the defendants as to that defense. Given that
the motion to dismiss and attached materials addressed Abram’s grievance history
and indicated that he had not exhausted his administrative remedies, the court
reasonably and permissibly made a “limited inquiry” into whether the defendants
intended to rely on that defense. > See id. The defendants then clearly requested
dismissal for lack of exhaustion. Accordingly, the district court did not improperly
invoke a defense on behalf of a defendant who did not raise it.
But the district court erred when, after the defendants decided to rely on lack
of exhaustion as a defense, it did not provide Abram with an opportunity to respond
and be heard on the issue before entering judgment against him. See id. (“Of course,
if the [defendant] decides to [rely on a defense in response to a court’s limited
inquiry], the district court must provide the movant with an opportunity to respond
and be heard on the issue.”); Tazoe v. Airbus S.A.S., 631 F.3d 132.1, 1336 (11th Gir.
2011) (stating that district courts generally must provide the plaintiff with an
opportunity to respond before dismissing a complaint). And we are hesitant to
-o

8

’ TV"

Case: 17-12319

Date Filed: 01/02/2019

Page: 9 of 10

conclude that the court’s consideration of Abram’s, motion for reconsideration,
which addressed the exhaustion issue, provided a meaningful opportunity to be heard
given the narrow grounds for granting reconsideration/ See Arthur v. King, 500 F.3d
»

1335, 1343.(11th Cir. 2007).
Although the failure to provide a meaningful opportunity to be heard could be
considered harmless if the complaint were “patently frivolous or if reversal,... would
be futile,” Tazoe, 631 F.3d at 1336 (quotation marks omitted),' on this record, we
cannot find that this exception applies here. In concluding that Abram had failed to
exhaust, the district court did not analyze the. exhaustion issue pursuant to this

\

Court’s two-step inquiry for deciding motions to dismiss for failure to exhaust under
the PLRA. See Whatley, 802 F.3d at 1209.: As outlined above, that inquiry requires
the court to first accept the prisoner’s allegations as true and dismiss only if “the
facts as stated by the prisoner show a failure to exhaust.” Id. If not, the court must
make factual findings to resolve the issue of exhaustion. Id.
Here, Abram’s allegations and evidence bear on the critical question of
whether the administrative remedies allegedly unexhausted were “available.” See

ARoss, 136 S. Ct. at 1858 (“An inmate, that is, must exhaust available remedies, but
need not exhaust unavailable ones.”); see 42 U.S.C. § 1997e(a) (“No action shall be
brought with respect to prison conditions under section 1983 . . . until such
administrative remedies as are available are exhausted.”). Abram contends that
9

/

J-W
*

Case: 17-12319

Date Filed: 01/02/2019

Page: 10 of 10

prison staff interfered with his pursuit of administrative remedies by refusing to
provide him with the forms required to utilize the grievance process and interfering
with his mail. While the district court concluded that Abram had not demonstrated
that he should be excused, from the exhaustion requirement, that is not the correct
inquiry. As the Supreme Court has made clear, “a court may not excuse a failure to
exhaust,” even to take special circumstances into account. Ross, 136 S. Ct. at 1856.
But remedies must be “available” before exhaustion is required. Because Abram’s
allegations pertain to the availability of his administrative remedies, we cannot say
that it would be futile to remand this matter to the district court to conduct the proper
two-step inquiry as outlined in Whatley and Turner. Cf. Tazoe, 631 F.3d at 1336.
IV.
Because the district court failed to provide Abram a meaningful opportunity
to respond and be heard on the exhaustion issue and then analyzed the exhaustion
issue under an incorrect standard, we vacate the dismissal of Abram’s complaint and
remand this case for further proceedings consistent with this opinion.
VACATED AND REMANDED.

;1

10

\

\

fa Lj fa

\

;

\

'A

\

L.. J

JS

t.j. fafa

.j

<

j .

4

t

r

j

Case 5:15-cv-00375-WTH-PRL Document 28 Filed 09/06/16 Page 1 of 4 PagelD 225
r

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION

»:

SAMUEL ROY ABRAM,

,> ; -

<: Jv-'*

i

•/

Plaintiff,
Case No: 5:15-cv-375-Oc-10PRL

v.

? •

DAVID LEU, A. CLONTZ and K.
BARKER

;

Defendants.

■*

i

v

;
:

}

ORDER

i

;

j *

::

■1'Plaintiffs a federal inmate proceeding pro.se: :initiated.tlnist case by .filing a ..civil
rights complaint pursuant to Bivens V. Six Unknown Agents of Fed. Bureau of Narcotics.
403 U.S. 388 (1971). Plaintiff alleges that. Defendant Clontz intercepted a piece of his
mail, questioned him to no avail and, therefore, subsequently placed him in the Special
v.-.,-;’:. r. .. •;
Housing Unit. (Doc. 1). Plaintiff also claims that Defendant Barker confiscated his
“sovereign, paperwork,'” and Defendant Leu conducted an investigation and improperly,
transferred h'im in violation oftfiaCdnstitutional rights. :Jdi
Defendants have filed a Motion to Dismiss;.;or in rthe Alternative, Motion for
Summary Judgment (Doc. 20), to which Plaintiff has filed a Response. , (Doc. 22).1
Defendants argue in part that this case is due to be dismissed because Plaintiff failed to
exhaust his administrative remedies. (Docs. 20, 27).2
‘On June 1, 2016, the Clerk issued the Summary Judgment Notice. (Doc. 24).
defendants clearly contended in the Motion to Dismiss/Motion for Summary Judgment
that the complaint was due to be dismissed because Plaintiff failed to allege a physical injury,
had not established a constitutional violation with respect to his First, Fifth and Eighth
Amendment claims and that they were entitled to qualified immunity. (Doc. 20). What was not
remedies. Accordingly, the Court directed Defendants to clarify whether Plaintiff exhausted his

I

.. /

(

t

\

\

Case 5:15-cv-00375-WTH-PRL Document 28 Filed 09/06/16 Page 3 of 4 PagelD 227

Here, the record reflects that Plaintiff failed to properly exhaust his
administrative remedies.

Defendants state that inmates at FCC Coleman have the

right to seek formal review of an issue relating to any aspect of his/her confinement,
including improper confiscation of property by filing an administrative claim within 20
days of the incident. (Doc. 20). Defendants provide that Plaintiff filed a claim, but it was
untimely and was not in accordance with proper procedures. ]d
Specifically,

Defendants state that on

February

10,

2014,

Plaintiff filed

administrative remedy number 767898-F1 at the institutional level claiming that staff
confiscated his sovereign paperwork and he was missing certified mail, id. Ex. 3, Doc.
27, Ex. A. The request was rejected because he raised more than one claim and he
was advised to file a separate request for each unrelated issue, id The request was
also rejected as untimely because it was not received within 20 days from the date of
\

the event, id Defendants state that Plaintiff failed to appeal this administrative remedy
at the regional or central office level. (Doc. 27).
Defendants also provide that on March 17, 2014, Plaintiff filed administrative
remedy number 771756-R1 at the regional level complaining about his mail.

The

request was rejected for failure to file a request at the institutional level for the warden’s
review before filing at the regional level, id Defendants assert that Plaintiff failed to re­
initiate his request at the institutional level.

(Doc. 27).

Based on the foregoing,

Defendants argue that Plaintiff failed to properly exhaust his administrative remedies.

3-

r

i

I

\

X

T

Case 5:15-cv-00375-WTH-PRL Document 28 Filed 09/06/16 Page 4 of 4 PagelD 228

(Docs. 20, 27).

Defendants have attached declarations and computer print-outs

regarding the administrative remedies in support of their argument, kb
Upon due consideration, Defendants’ request for dismissal of this case (Doc. 20)
is hereby GRANTED to the extent that the complaint is DISMISSED without prejudice
for failure to exhaust administrative remedies. The Clerk is directed to enter judgment
accordingly, terminate any pending motions and close the file.
IT IS SO ORDERED.
DONE AND ORDERED at Ocala, Florida, this 6th day of September 2016.

UNITED STATES DISTRICT JUDGE

4

*...

USCA11 Case: 20-11177

Date Filed: 05/21/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11177-HH

SAMUEL ROY ABRAM,
Plaintiff - Appellant,
versus
DAVID LEU,
Captain of Security,
A. CLUNTZ,
SIS Agent,
K. BARKER,
SIS Lieutenant,
Defendants - Appellees.

Appeal from the United States District Court
for the Middle District of Florida

ON PETITION! SI FOR REHEARING AND PETITIONS') FOR REHEARING EN BANC
BEFORE: ROSENBAUM, NEWSOM, and ANDERSON, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

USCA11 Case: 20-11177

r

Date Filed: 06/01/2021

Page: 1 of 1

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
No. 20-11177
District Court Docket No.
5:15-cv-00375-TJC-PRL
SAMUEL ROY ABRAM,
Plaintiff - Appellant,
versus
DAVID LEU,
Captain of Security,
A. CLUNTZ,
SIS Agent,
K. BARKER,
SIS Lieutenant,
Defendants - Appellees.

Appeal from the United States District Court for the
Middle District of Florida
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: March 25, 2021
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

ISSUED AS MANDATE 06/01/2021

USCA11 Case: 20-11177

Date Filed: 05/21/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11177-HH
SAMUEL ROY ABRAM,
Plaintiff - Appellant,
versus
DAVID LEU,
Captain of Security,
A. CLUNTZ,
SIS Agent,
K. BARKER,
SIS Lieutenant,
Defendants - Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ON PETITIONS FOR REHEARING AND PETITION!S') FOR REHEARING EN BANC
BEFORE: ROSENBAUM, NEWSOM, and ANDERSON, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

